HHS/OIG, Audit - "Follow-Up Review of the Aid to Families With Dependent
Children Overpayment Recoveries Collected by the New York City Human Resources
Administration," (A-02-06-02011)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up
Review of the Aid to Families With Dependent Children Overpayment Recoveries
Collected by the New York City Human Resources Administration," (A-02-06-02011)
October 2, 2007
Complete
Text of Report is available in PDF format (281 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations require states to pursue Aid to
Families with Dependent Children (AFDC) overpayments made prior to October 1,
1996, and make appropriate refunds to the Federal Government.  This follow-up
report points out that the State agency refunded to the Federal Government the
estimated Federal share of AFDC overpayments totaling $33.6 million recovered by
the New York City Human Resources Administration (HRA) during the period
December 1, 1996, through September 30, 2001, as recommended in our prior report
(A-02-01-02000).  However, the State agency did not implement our recommendation
to take appropriate steps to refund the Federal share of AFDC overpayments
recoveries collected by HRA subsequent to September 30, 2001.  As a result, the
State agency did not refund the estimated Federal share of AFDC overpayments
totaling $896,711 recovered by HRA during the period October 1, 2001, through
September 30, 2006.  State agency officials concurred with our recommendation
that the State refund the $896,711 to the Federal Government but objected to our
second recommendation that the State agency ensure that AFDC overpayment
recoveries collected after September 30, 2006, are refunded to the Federal
Government in a timely manner.